Before the Commerce, Science, and Transportation Committee
Subcommittee on Consumer Protection, Product Safety, and Insurance
United States Senate


For Release on Delivery
Expected at               NHTSA’s Oversight of
                          Vehicle Safety Defects and
2:30 p.m. EST
Tuesday
September 16, 2014
CC-2014-029
                          Highway Safety Grants



                           Statement of
                          Joseph W. Comé
                          Deputy Principal Assistant Inspector General
                            for Auditing and Evaluation
                          U.S. Department of Transportation
Chairman McCaskill, Ranking Member Heller, and Members of the Subcommittee:

Thank you for inviting me to testify on our recent and ongoing work on the National
Highway Traffic Safety Administration’s (NHTSA) oversight of vehicle safety defects
and highway safety grants. NHTSA administers highway safety and consumer programs
intended to save lives, prevent injuries, and reduce economic costs resulting from motor
vehicle crashes. In 2012, motor vehicle fatalities in the United States totaled 33,561. To
carry out its broad safety mission, NHTSA has a wide variety of responsibilities—
ranging from overseeing the automobile industry’s efforts to manufacture cars that are
free of defects to providing and overseeing grants to States and localities that fund
initiatives to mitigate safety risks on the Nation’s highways.

My testimony today will focus on NHTSA’s efforts to identify and secure an effective
defects workforce to oversee automobile safety and enhance its oversight of highway
safety grants.

IN SUMMARY
• NHTSA’s Office of Defects Investigation (ODI) has made progress in strengthening
  its investigative processes but has not completed a workforce assessment.

• Ongoing vehicle safety concerns—particularly those related to General Motors’ (GM)
  recalls—prompt further assessment of NHTSA’s vehicle safety defect processes.

• Enhanced monitoring tools are needed to improve NHTSA’s oversight of highway
  safety grants.

BACKGROUND
The National Traffic and Motor Vehicle Safety Act authorizes NHTSA to issue vehicle
safety standards and to require manufacturers to recall vehicles and equipment that have
safety-related defects or that do not meet Federal safety standards. ODI conducts tests,
inspections, and investigations to identify safety defects in motor vehicles and equipment.
Based on its findings, NHTSA can require manufacturer recalls notifying the public and
correcting the defects. When conducting investigations, ODI can request that
manufacturers provide data on complaints, injuries, warranty claims, modifications, parts
sales, and other items.

In 2011, we reported weaknesses in NHTSA’s vehicle defect identification processes.
Specifically, ODI needed to improve its processes for (1) recommending investigations of
potential defects, (2) determining when to use third-party assistance, (3) documenting
investigation information, and (4) ensuring an adequate and well-trained workforce. In
response to our recommendations, NHTSA has implemented more robust defect


                                                                                         1
investigation processes such as developing a framework for obtaining third-party testing
and preparing a checklist to enhance documentation of investigative evidence.

The Moving Ahead for Progress in the 21st Century Act (MAP-21) authorized about
$1.3 billion to fund highway safety formula and incentive grants for fiscal years 2013 and
2014. States distribute these grants to a wide network of sub-grantees nationwide.
NHTSA’s regional offices monitor States’ and sub-grantees’ use of grant funds, such as
conducting triennial management reviews and ongoing oversight.

ODI HAS MADE PROGRESS IN STRENGTHENING ITS INVESTIGATIVE
PROCESSES BUT HAS NOT COMPLETED A WORKFORCE
ASSESSMENT
As we reported in 2011 and testified before this committee in April 2014, ODI lacked the
processes needed to ensure that manufacturers recall vehicles and equipment with safety-
related defects in a timely manner. 1 Notably, ODI’s central database for safety defect
information did not track the disposition of consumer complaints. These complaints are
ODI’s primary means for determining whether an investigation is warranted. We
identified similar weakness in ODI’s processes for determining when to use third-party
assistance, documenting investigation information, and assessing workforce needs.

ODI has addressed 9 of our 10 recommendations for enhancing these processes (see
attachment). However, it has not completed a systematic workforce assessment, as called
for in the Department of Transportation’s (DOT) “Workforce Planning Guide.” 2 As we
reported, conducting a comprehensive workforce assessment would enable ODI to
determine the number of staff and specialized skills needed to ensure manufacturers
recall vehicles and equipment with safety-related defects in a timely manner.

Since 2011, ODI has taken some action to analyze its workforce needs including
preparing a statement of work, identifying a contractor, and obtaining a draft assessment.
However, ODI staff recently told us that the final workforce assessment will not be
available until November 14, 2014.

ONGOING VEHICLE SAFETY CONCERNS PROMPT FURTHER
ASSESSMENTS OF ODI’S PROCESSES
Despite NHTSA’s progress in improving its processes for identifying vehicle safety
defects, concerns remain—particularly in light of the recent GM recalls. Since
February 2014, GM has recalled 8.6 million vehicles sold in the United States related to a
1
  Process Improvements Are Needed for Identifying and Addressing Vehicle Safety Defects (OIG Report Number MH-2012-001),
Oct. 6, 2011. OIG reports are available on our Web site at http://www.oig.dot.gov.
2
  DOT’s “Workforce Planning Guide” provides information on assessing staffing needs for DOT Operating Administrations that
can facilitate more efficient and accurate alignment of the workforce to meet organizational goals, commitments, and priorities.

                                                                                                                              2
possible defective ignition switch that can cause the engine to shut down and disable
power steering, power brakes, and airbags. Initially, GM’s recall was limited to about
600,000 vehicles manufactured between 2005 and 2007, but eventually expanded to a
total of four separate recalls impacting vehicles manufactured between 1997 and 2014.

In March 2014, the Secretary of Transportation asked us to undertake a review of
NHTSA’s safety functions and processes related to the GM recalls. Expanding on our
prior work, we are drilling down on NHTSA’s pre-investigation process. During the pre-
investigation phase, ODI’s Defect Assessment Division screens consumer complaints,
external manufacturer communications, and other information related to alleged safety
defects (see figure). The information helps ODI determine whether to take actions, such
as opening investigations or evaluating the adequacy of safety recalls.

Figure. ODI’s Pre-Investigation, Investigation, and Post-Investigation
Processes




Source: OIG analysis of ODI processes

A critical part of the pre-investigation phase involves manufacturers’ early warning
reporting to alert the Defect Assessment Division of potential risks or issues. As the
Inspector General testified in April 2014, NHTSA cannot do its job effectively if auto
manufacturers withhold critical safety information—as we found to be the case with the
Toyota Motor Company. 3 Upon showing that a manufacturer withheld such information,
NHTSA, the Department, and in appropriate circumstances, our law enforcement and

3
  Toyota admitted that it concealed and made deceptive statements about safety issues affecting its vehicles, misleading U.S.
consumers and NHTSA. Toyota was charged with wire fraud for providing the misleading information and forfeited $1.2 billion.

                                                                                                                           3
Federal prosecutorial partners can seek sanctions against these companies for withholding
such information. In May 2014, NHTSA assessed a $35 million civil penalty—the
statutory limit—against GM for failing to report the defective ignition switch in a timely
manner.

As part of our ongoing audit, we are determining if information on ignition switch issues
or non-deploying airbags was available to NHTSA but not used in the GM defect
analysis. 4 We plan to issue our final report next spring.

ENHANCED MONITORING TOOLS ARE NEEDED TO IMPROVE
NHTSA’S OVERSIGHT OF HIGHWAY SAFETY GRANTS
In addition to identifying and addressing vehicle safety defects, NHTSA promotes
vehicle safety through administration and oversight of highway safety grants to States
and sub-recipients. In August 2014, we reported that NHTSA grantees generally met key
Federal grant requirements, but NHTSA lacks strategies for addressing delayed
expenditures of grant funds, tracking mechanisms for following up on grantee
deficiencies, or tools to identify and mitigate systemic nationwide issues. 5

We focused on NHTSA’s Region 5 office, 6 which we randomly selected from NHTSA’s
10 regional offices. Where appropriate, we identified vulnerabilities that applied across
the Agency, including a lack of guidance and monitoring mechanisms.

NHTSA grantees we reviewed generally met key Federal grant requirements. Our sample
review of 66 grant expenditures (totaling $5.7 million) by Region 5 States and their sub-
grantees for fiscal years 2011 to 2012 did not identify significant lapses in the Region’s
oversight. Our review of Region 5 grantees determined that each transaction (1) met
funding parameters of the grant programs, (2) were charged to appropriate grant funding
codes, and (3) were supported by sufficient documentation. For example, we verified two
fiscal year 2012 expenditures by Indiana University’s Automotive Safety Program for
$130,996 and $98,950. These two expenditures were made under an $850,000 occupant
protection program grant agreement, which provided funds for child passenger safety
programs. We also confirmed that States met Federal grant administrative requirements.
For example, we verified that grantees complied with requirements for indirect costs,
such as rent and motor pools, which were charged to Federal grants.

However, NHTSA lacks an overall strategy for addressing persistent delays in grantees’
use of grant funds—a shortcoming that affects all regional offices. For fiscal years 2006
through 2012, we identified approximately $539 million in unexpended funds across all
4
  As part of our review, we are also determining whether NHTSA has effectively implemented its enhanced processes for
identifying and addressing vehicle safety defects.
5
  Enhanced Monitoring Tools Are Needed To Improve NHTSA’s Oversight of Highway Safety Grants (OIG Report Number
MH-2014-088), Aug. 21, 2014.
6
  Region 5 includes Indiana, Illinois, Michigan, Minnesota, Ohio, and Wisconsin.

                                                                                                                   4
regional offices. For Region 5 alone, the amount of unexpended funds was nearly
$67 million (or about 12 percent of the national total). Unused safety grant funds
represent potential lost or delayed opportunities to fund programs that reduce fatalities,
injuries, and property damage. Although Region 5 has taken some action to encourage
States to liquidate these balances, NHTSA has not developed sufficient strategies to
better ensure that States use grant funds in a timely manner—such as developing
individual funding liquidation plans for each State with specific targets and mitigation
strategies.

In addition, NHTSA does not sufficiently track grantee deficiencies identified in its
triennial management reviews of grantees. From fiscal years 2010 through 2012,
NHTSA’s Region 5 officials conducted congressionally mandated triennial management
reviews of all six of its State grant programs. These reviews identified deficiencies, such
as improper use of funds and a lack of monitoring plans. However, some findings and
recommendations were closed without sufficient documentation. Weaknesses ranged
from NHTSA not maintaining documentation to States not providing sufficient
documentation to support closing a recommendation. For example, Region 5 officials
closed 7 of 9 findings and 16 of 25 non-binding recommendations made in the triennial
management reviews but could not provide sufficient documentation of States’ actions to
justify closing three of the findings and recommendations. Region 5 also lacked
documentation of management’s approval for closing recommendations. NHTSA’s
guidance and procedures, which apply to all regional offices, do not require
documentation and management approval for key actions related to the disposition of
grantee deficiencies. In our view, improved documentation would provide greater
assurance that States are fixing identified issues.

Finally, NHTSA lacks a standardized mechanism for tracking the disposition of grantee
deficiencies across all regional offices, which would allow the Agency to identify and
mitigate systemic issues on a national level. In 2008, we recommended that NHTSA
implement an electronic tracking system for monitoring the disposition of oversight
recommendations to States in order to efficiently share findings, follow up on unresolved
recommendations, and enhance quality control. 7 In response to our recommendation,
NHTSA agreed to implement a spreadsheet tool to track the deficiencies agencywide.
However, during our recently completed audit, we identified weaknesses in NHTSA’s
implementation of the spreadsheet. Notably, the spreadsheet is not directly linked to
regional offices for real-time updates, and it lacks features to uniformly identify, classify,
compare, track, mitigate, and report on systemic or recurrent grantee deficiencies.
NHTSA committed to addressing these weaknesses by developing a database in 2015 that
will allow users to track NHTSA’s findings until resolution; conduct queries and analyses
to determine State, regional, and national trends; and produce management reports.


7
 Best Practices For Improving Oversight of State Highway Safety Programs (OIG Report Number MH-2008-046),
Mar. 25, 2008.

                                                                                                       5
NHTSA generally concurred with the four recommendations in our August 2014 report to
improve its stewardship and oversight of Federal grant funds. We will continue to
monitor NHTSA’s implementation of our recommendations as needed to ensure that
NHTSA improves its grant guidance and monitoring tools for greater assurance that
States and sub-grantees are using Federal resources in a timely and appropriate manner.

Overall, NHTSA has made progress in strengthening its defect investigation processes
and ensuring that its grantees meet key Federal grant requirements. However,
successfully implementing its enhanced processes, completing the workforce assessment,
identifying and securing an adequate workforce, and enhancing grant oversight are key
for NHTSA to carry out its broad safety mission.

Chairman McCaskill, this concludes my prepared statement. I will be happy to answer
any questions you or other members of the Subcommittee may have.




                                                                                     6
ATTACHMENT. STATUS OF 2011 OIG RECOMMENDATIONS FOR
NHTSA’S VEHICLE DEFECT INVESTIGATION PROCESSES

Recommendation                          Status          Actions Taken
1. Revise the pre-investigation         Closed          ODI provided documentation demonstrating that:
processes to ensure that the            June 19, 2012   • Artemis tracks complaint reviews (who and
review of each complaint is                               when),
recorded and that complaints are
tracked to associated                                   • all relevant complaint numbers are included in
investigations in Artemis.                                the resume for each phase of an investigation,
                                                          and
                                                        • investigation process documents have been
                                                          updated to reflect these policy changes.
2. Establish pre-investigation          Closed          ODI provided documentation demonstrating that a
processes for retaining and storing     Dec. 5, 2012    process for using a case management system had
pre-investigation records, such as                      been established to maintain pre-investigation
investigation proposals and                             data.
insurance company data.
3. Require that decisions made          Closed          ODI provided documentation demonstrating that:
and actions taken by ODI Defect         Dec. 5, 2012    • Defects Assessment Panel minutes are added
Assessment Panels are recorded,                           to a standardized form and uploaded to the
including justifications for not                          repository for the relevant issue evaluation (IE),
proceeding to investigations.
                                                        • IEs that do not proceed to investigation are
                                                          marked with one of two codes: “minimal hazard
                                                          indicated” or “no actionable trend indicated,” and
                                                        • specifics concerning panel dates and IE
                                                          dispositions are recorded in Artemis annotations
                                                          for the appropriate IEs. These data can be
                                                          analyzed and presented in report form.
4. Establish systematic processes       Closed          ODI provided revised office procedures including a
for determining when a third party      Mar. 27, 2012   framework for obtaining third-party resources.
or the Vehicle Research Test
Center should be used to verify
manufacturer information or assist
in identifying a potential defect.
5. Revise the ODI investigation         Closed          ODI established processes for justifying and
process to require justifications for   Mar. 27, 2012   documenting investigations that exceed timeliness
continuing or closing investigations                    goals.
that exceed timeliness goals for
preliminary evaluations and
engineering analyses.




                                                                                                               7
Recommendation                         Status          Actions Taken
6. Revise the ODI investigation        Closed          ODI provided documentation that it developed an
process to establish criteria for      Mar. 1, 2013    “Investigation Documentation Checklist.” This
documenting evidence, such as                          checklist is a process for documenting evidence
associated complaints, meetings                        collected by the ODI investigators—including
with manufacturers and other                           consumer complaints, meetings with
stakeholders, and third-party                          manufacturers and third parties, and testing.
analysis or testing conducted.
7. Strengthen ODI’s redaction          Closed          ODI issued a revised redaction policy in
policy and process to better protect   Oct. 13, 2011   August 2011.
consumers’ personal information
from public availability, such as by
using automated redaction
software.
8. Conduct a workforce                 Open            ODI estimates that it will complete its workforce
assessment to determine the                            assessment by November 14, 2014.
number of staff required to ensure
that ODI meets its objectives and
determines the most effective mix
of staff.
9. Develop a formal training           Closed          ODI provided a copy of its new training plan.
program to assist ODI staff in         May 29, 2013    According to NHTSA officials, this plan will assist
acquiring knowledge and staying                        ODI in the development of its current and future
abreast of ODI processes and                           workforce; ensure the continuity of institutional
current and new automobile                             knowledge; and ensure that investigators and
technologies.                                          other ODI staff become proficient in new
                                                       automotive, investigative, and vehicle safety
                                                       technologies.
10. Develop and implement a            Closed          ODI stated that it planned to form an informal
strategy for increasing coordination   Oct. 13, 2011   working group to discuss issues of mutual interest
with foreign countries to enhance                      to the international enforcement community.
ODI’s ability to identify safety                       NHTSA would chair the group, and the group
defects and to exchange                                would meet twice a year—with the first meeting
information on foreign recalls.                        taking place on November 17, 2011.
Source: OIG analysis of NHTSA documentation




                                                                                                             8
